STATE OF NEBRASKA

@ffrrr st tbt flttffinry Gwrorul
2115 STATE CAPITOL BUILDING
L|NCOLN, NE 68509-8920
(402) 471-2682
TDD (402) 471-2682
FAX (402) 471-3297 ot (402) 471-4725

DOUGLAS J. PETERSON
ATTORNEYGENERAL

October

I,2020

Scott Harris
Clerk of the United States Supreme Court
One First Street, N.E.
Washington, D.C. 20543
Re

Hessler v. Nebraska, No. 20-5562

Capital Case
Rule 30.4 extension request

-

unopposed

Dear Mr. Harris:

The Respondent State of Nebraska requests a thirty-day extension to and
including November 4,2020, to file its response brief in opposition to the Petitioner's
petition for a writ of certiorari. Petitioner's counsel of record has advised the State's
undersigned counsel that there is no objection to this request.
The extension request is because undersigned counsel has needed to prepare
for oral argument in the Nebraska Supreme Court and because of undersigned's
obligation to make numerous continuing legal education presentations in October to
Nebraska's statewide prosecutors' association.
Sincerely,
/s/ James D. Smith
Senior Assistant Attorney General
Counsel of Record
james. smith@nebraska. gov
Tel: 402-499-1489
Fax: 402-47t-3297
State of Nebraska, Respondent

cc: Jerry Htg, counsel of record for Petitioner

